                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-FM-14-23                                     Office of Audits                                        April 2014




         Audit of Department of State FY 2013 

             Compliance With Improper

               Payments Requirements





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                         UNCLASSIFIED

                                                         lnitf'd State=-- Oc pailmcnl nf'. ' t~t l P
                                                         and th<> Broadea::;ting Bourd of Governors

                                                         Offiu of lnsrPrtor Gemmd

                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Department of State's (Deprutment) FY 2013 compliance with
improper payments requirements. The report is based on interviews with employees and
officials of relevant agencies ru1d institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant Kearney & Company, P.C.
(Kearney), to perform this audit. The con tract required that Kearney perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney 's report is included.

      Kearney determined that the Department was in substantial compliance with improper
payments requirements. However, Keru·ney identified two areas in which improvements could
be made: payment recapture audit activities and improper payments reporting.

        OIG evaluated the nature, extent, and timing of Keruney' s work; monitored progress
throughout the audit; reviewed Kearney ' s supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. The reconunendations contained in the report
were developed on the basis of the best knowledge availab le and were discussed in draft form
with those individuals responsible for impl ementation. OIG' s analysis of management' s
response to the recommendations has been incorporated into the report. OIG trusts that this
repott wi ll result in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.




                                        Norman P. Brown
                                        Assistant Inspector General for Audits




                                         UNCLASSIFIED 

                                      UNCLASSIFIED




                                                       1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                       PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of Department of State FY 2013 Compliance With Improper Payments Requirements



Office of Inspector General
U.S. Department of State
Washington, D.C.

Kearney & Company, P.C. (referred to as “we” in this letter), has performed an audit of the
Department of State’s FY 2013 compliance with improper payments requirements. This
performance audit, performed under Contract No. SAQMMA09D0002, was designed to meet the
objective identified in the report section titled “Objective” and further defined in Appendix A,
“Scope and Methodology,” of the report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.




Kearney & Company, P.C.
Alexandria, Virginia
April 15, 2014




                                      UNCLASSIFIED

                               UNCLASSIFIED 




Acronyms

AFR            Agency Financial Report
CGFS           Bureau of the Comptroller and Global Financial Services
CGFS/DCFO/MC   Bureau of the Comptroller and Global Financial Services, Deputy Chief
               Financial Officer, Management Controls
CGFS/F/C       Bureau of the Comptroller and Global Financial Services, Office of
               Claims
CGFS/OMA       Bureau of the Comptroller and Global Financial Services, Office of
               Oversight and Management Analysis
D&CP           Diplomatic and Consular Programs
ECA            Educational and Cultural Exchange Programs
ESCM           Embassy Security, Construction & Maintenance
INL            International Narcotics Control and Law Enforcement
IPERA          Improper Payments Elimination and Recovery Act of 2010
IPERIA         Improper Payments Elimination and Recovery Improvement Act of 2012
IPIA           Improper Payments Information Act of 2002
NADR           Non-Proliferation, Anti-Terrorism, Demining, and Related Programs
OIG            Office of Inspector General
OMB            Office of Management and Budget
WCF            Working Capital Fund




                               UNCLASSIFIED 

                                                           UNCLASSIFIED


                                                        Table of Contents



Section

Executive Summary ......................................................................................................................... 1 


Background..................................................................................................................................... 1 


Objective........................................................................................................................................ 4 


Audit Results ................................................................................................................................. 4 

       Finding A. Programs Were Defined and Systematic Program Risk Assessments 

                    Were Performed ............................................................................................... 4 

       Finding B. Controls To Prevent, Detect, and Recapture Improper Payments Were 

                    Strengthened But Recapture Audit Excluded Some Payments ........................ 6 

       Finding C. Required Improper Payments Disclosures Were Made but Some Were 

                    Not Complete .................................................................................................. 11 


List of Recommendations .............................................................................................................. 14 


Appendices
      A. Scope and Methodology ............................................................................................... 15 

      B. Department Programs Subject to Improper Payments Risk Assessment. .................... 17 

      C. Bureau of the Comptroller and Global Financial Services Response .......................... 18 





                                                           UNCLASSIFIED 

                                               UNCLASSIFIED


                                           Executive Summary

       Improper Federal payments totaled an estimated $106 billion in FY 2013. Over the past
decade, the Federal Government has implemented safeguards to reduce improper payments. In
2010, the Improper Payments Elimination and Recovery Act 1 (IPERA), which amended the
Improper Payments Information Act of 20022 (IPIA), was signed into law. IPERA strengthened
IPIA by increasing requirements for identifying and reporting on improper payments. In April
2011, the Office of Management and Budget (OMB) issued guidance to implement IPERA.

        IPIA, as amended by IPERA,3 requires agencies' Offices of Inspector General (OIG) to
annually assess compliance with improper payments requirements. 4 In accordance with this
requirement, Kearney & Company, P.C. (Kearney), an external audit finn acting on OIG's
behalf, conducted an audit of the Department of State's (Department) FY 2013 compliance with
IPIA.

        Kearney found that the Department was in substantial compliance with IPIA
requirements. Specifically, the Bureau of the Comptroller and Global Financial Services (CGFS)
defined the Department's programs and conducted systematic improper payments risk
assessments of significant programs. CGFS also strengthened its improper payments recapture
audit policies and procedures and made the required improper payments disclosures in the
Department's FY 2013 Agency Financial Report (AFR).s However, CGFS excluded a
significant amount of payments from its recapture audits, and two disclosures relating to the
recapture audit process were not complete.

        010 is recommending that CGFS enhance its recapture audit procedures to include all
payment types, or formally document its justifications for the exclusions and communicate the
exclusions to OMB and OIG, and improve its controls over improper payments reporting to
ensure the completeness of the information disclosed in the AFR.

        In its April3, 2014, response (see Appendix C) to the draft report, CGFS concurred with
the two recommendations. Based on the response, OIG considers the two recommendations
resolved, pending further action. Management's response and OIG's replies to those responses
are included after each recommendation.

                                                Background
        Improper Federal payments to individuals, organizations, and contractors totaled an
estimated $1 06 billion during FY 2013.6 Improper payments are payments that should not have
been made or that were made in an incorrect amount. Improper payments include overpayments

I Pub. L. No. 111-204. 

2   Pub. L. No. 107-300. 

3 Unless otherwise indicated, the term "IPIA" will imply "IPIA, as amended by IPERA" in this report. 

4 Pub. L. No. 111-204 § 3(b).                                    '

s Federal agencies may publish their financial statements in either an AFR or a Performance Accountability Report. 

The Department has elected to use the AFR format. 

6 Sean Reilly, "Improper payment rate falls again," Federal Times, Dec. 31, 2013. 



                                                   1
                                              UNCLASSIFIED
                                                UNCLASSIFIED 



and underpayments, duplicate payments, payments made to an ineligible recipient, payments for
an ineligible good or service, payments for goods or services not received (except for such
payments authorized by law), payments that do not account for credit for applicable discounts,
and payments for which an agency cannot determine whether the payments were proper because
of insufficient or lack of supporting documentation.

        Over the past decade, the Federal Government has implemented safeguards to reduce
improper payments. IPIA, as initially enacted in 2002, required Federal agencies to annually
identify programs and activities? at high risk of improper payments, estimate the amount of
improper payments in those programs, perform recovery auditing if program payments exceeded
$500 million, and report to Congress on steps taken to reduce improper payments.

        In July 2010, IPERA, which amended IPIA, was enacted in an effort to further reduce
improper payments. IPERA clarified the programs to be reviewed and expanded improper
payments recapture activities. IPERA also required inspectors general to determine whether an
agency is in compliance and established additional requirements for agencies that were deemed
noncompliant. In April 2011, OMB issued guidance for agencies implementing IPERA
requirements, as Appendix C, Revised Parts I and II, ofOMB Circular A-123, Management's
Responsibility for Internal Control. 8 The guidance, among other things, defines the programs
and payments that agencies must assess for the risk of improper payments and provides
requirements for determining whether the risk of improper payments is significant, for
developing an estimate of improper payments, for performing recapture audit activities, and for
reporting improper payments activities.

       In January 2013, the Improper Payments Elimination and Recovery Improvement Act of
20129 (IPERIA) was enacted. IPERIA further amended IPIA by requiring, among other things,
that OMB identify high-priority Federal programs for greater levels of oversight and review,
provide guidance to agencies for improving estimates of improper payments, and establish a
working system for prepayment and preaward review.

Department of State Payments

        The Department is the primary agency through which the U.S. Government conducts its
diplomacy. The Department operates more than 270 embassies, consulates, and other posts
worldwide. The Department provides policy guidance, program management, administrative
support, and in-depth expertise in areas such as law enforcement, economics, the environment,
intelligence, arms control, human rights, countemarcotics, counterterrorism, public diplomacy,
humanitarian assistance, security, nonproliferation, and consular services.

      Because of the nature and the extent of its programs, the Department makes significant
payments to third-party vendors, contractors, and grantees. During FY 2013, the Department
made approximately $31.5 billion in payments, of which $15.1 billion were payments subject to

7 The tenn "program and activity" is referred to in this report as "program."
8 OMB Circular A-123, Appendix C, Revised Parts I and II      will be referred to in this report as OMB Circular A-123, 

Appendix C. 

9 Pub. L. No. 112-248. 



                                                           2
                                                UNCLASSIFIED
                                                UNCLASSIFIED 



IPIA requirements.IO The payments subject to IPIA requirements included payments to vendors
and contractors and Federal Financial Assistance payments, including grants, assessed
contributions, II and voluntary contributions.l2 The amount and volume of payments made by the
Department, the Department's emphasis on expediting certain payments (for example, payments
for necessary foreign financial assistance), and the decentralized nature of the Department's
operations increase the Department's risk for improper payments.

        CGFS has oversight responsibilities for the Department's financial management
program. Financial management program responsibilities include establishing financial policy
and procedure, financial reporting and analysis, management of financial information systems,
and management controls. Management controls, also known as "internal controls," are the
processes designed and implemented by an organization to help it accomplish its goals or
objectives. Important internal control activities include those that are aimed at ensuring that only
valid, proper payments are made.

       Within CGFS, the Deputy Chief Financial Officer, Office of Management Controls
(CGFS/DCFO/MC), is responsible for overseeing the Department's management control
program and other financial management functions, such as administering compliance with IPIA.
The Office of Claims (CGFS/F/C) is the central domestic funding paying agent of the
Department. The Office of Oversight and Management Analysis (CGFS/OMA) is responsible
for, among other things, ensuring compliance with financial laws, policies, and procedures and
performing internal control and quality control reviews.

Prior OIG Reports

        In 2013, OIG reportedl3 that, although the Department had taken steps to comply with
IPIA, significant areas of improvement remained. The Department had expanded and
standardized improper payments risk assessment procedures, implemented a recapture audit
process, and included information on the risk assessment process and recapture audit activities in
its FY 2012 AFR. However, the Department's improper payments risk assessment methodology
required additional refinement, and baseline risk assessments had not been performed for all
programs as required. In addition, recapture audit activities were not performed for all types of
improper payments or all payments, and some improper payments disclosures required to be
included in the AFR were omitted. OIG recommended that the Department conduct full baseline
improper payments risk assessments for all programs and enhance its methodologies and policies


10 OMB Circular A-123, Appendix C, states that agencies are not obligated to review payments to employees and 

intragovemmental transactions for improper payments unless directed to do so by OMB. Of the $31.5 billion in 

Department payments, approximately $7.2 billion were payments to employees and $9.2 billion were 

intergovernmental and intradepartmental transactions. Beginning in FY 20 14, IPERIA requires that agencies 

include payments to employees as subject to risk assessment. 

II Assessed contributions represent assistance provided to foreign countries, international societies, commissions, 

proceedings or projects that are lump sum, quota of expenses, or fixed by treaty. 

12 Voluntary contributions represent discretionary financial assistance provided to foreign countries, international 

societies, commissions, proceedings, or projects. 

13 Audit ofDepartment ofState FY 2012 Compliance With Improper Payments Requirements (AUD-FM-13-23, 

March 2013). 



                                                     3
                                                UNCLASSIFIED
                                       UNCLASSIFIED 



and procedures for performing risk assessments and recapture audit activities and for reporting
information relating to improper payments in its AFR.

                                          Objective

      The overall objective of this audit was to determine whether the Department was in
compliance with IPIA. To accomplish this objective, Kearney

       • 	 Evaluated whether the Department conducted a program-specific risk assessment for
           all programs.

       • 	 Evaluated the Department's performance in preventing, detecting, and recapturing
           improper payments.

       • 	 Determined whether the Department reported the required improper payments
           information in its 2013 AFR.

                                        Audit Results

Department Was in Substantial Compliance with IPIA

        Kearney found that the Department had taken sufficient steps during FY 20 13 to
substantially comply with IPIA requirements. Specifically, CGFS defined the Department's
programs and conducted systematic improper payments risk assessments of significant programs
in compliance with IPIA. CGFS also strengthened its improper payments recapture audit
policies and procedures by implementing procedures to ensure coverage of all improper
payments types, programs with higher risks, and overseas payments. However, CGFS continued
to exclude a significant amount of payments from its recapture audits without performing cost­
benefit analyses to support the exclusions. In addition, CGFS reported the required improper
payments information in the Department's FY 2013 AFR; however, two disclosures relating to
the improper payments recapture audit process were not complete.

Finding A. Programs Were Defined and Systematic Program Risk
Assessments Were Performed

        During FY 2013, CGFS/DCFO/MC defined the Department's programs and performed
full systematic risk assessments of all significant programs in accordance with OMB Circular
A-123, Appendix C.

Programs Were Defined

       IPIA requires agencies to periodically review all programs and identify those that may be
susceptible to significant improper payments. OMB Circular A-123, Appendix C, states that a
program includes "activities or sets of activities recognized as programs by the public, OMB, or
Congress, as well as those that entail program management or policy direction."

                                            4
                                       UNCLASSIFIED
                                             UNCLASSIFIED 




        During FY 2013, CGFS/DCFO/MC defined its programs for IPIA risk assessment
purposes to align with the Department's budget requests and appropriations and the manner in
which Department officials manage their operations. Specifically, CGFS/DCFO/MC identified
each major program receiving appropriations in its FY 2013 Congressional Budget Justification.
Using Department of the Treasury fund symbols, CGFS/DCFO/MC identified the FY 2013
expenses for each of the major programs. For major programs in which the Department
performed different activities or operations around the world, CGFS/DCFO/MC obtained
information from Department bureaus and program managers to determine how best to group
these activities into separate programs. Based on the information received, CGFS/DCFO/MC
developed an inventory of the Department's programs along with each program's payments
subject to IPIA.

Systematic Program Risk Assessments Were Performed

        OMB Circular A-123, Appendix C, requires that agencies perform a risk assessment of
all programs for susceptibility for significant improper payments. The Circular defines
"significant improper payments" as gross annual improper payments in the program exceeding
(1) both 2.5 percent14 of program outlays and $10 million of all program payments made during
the fiscal year or (2) $100 million. Agencies must institute a systematic method of performing
the risk assessments. An agency can perform a quantitative evaluation based on a statistical
sample or it can perform a qualitative evaluation by considering risk factors likely to contribute
to significant improper payments. For qualitative evaluations, the Circular lists eight risk factors
that should be considered, including the age of the program; the complexity of the program; the
volume ofpayments made annually; whether payment eligibility decisions are made outside of
the agency; recent major changes in the program; the level, experience, and quality of training of
certain personnel; significant deficiencies identified in audit reports; and results from prior
improper payment work.

        During FY 2013, CGFS/DCFO/MC performed a systematic risk assessment of all
significant Department programs. Concluding that programs with less than $1 00 million in
expenditures would be highly unlikely to have improper payments that exceeded both 2.5 percent
of program outlays and $10 million of all program payments, CGFS/DCFO/MC established a
threshold of over $100 million to select programs for review. Using its inventory of Department
programs, CGFS/DCFO/MC identified 35 programs with more than $100 million in payments
subject to IPIA. Appendix B provides a list of the 35 programs.

        CGFS/DCFO/MC performed and documented a qualitative risk assessment of each of its
35 significant programs. To perform the assessment, CGFS/DCFO/MC developed a scorecard
for each program that included an evaluation of the eight risk factors specified by OMB.
CGFS/DCFO/MC obtained information for its evaluation by reviewing the Congressional
Budget Justification, internal and external Web sites, and internal and external reports. Based on
the information obtained, CGFS/DCFO/MC assigned a numerical rating of 1, 2, or 3 to each
program for each risk factor. For example, for one risk factor-results from prior improper

14 Although IPERA reduced the percentage error rate from 2.5 percent to 1.5 percent beginning in FY 2013, IPERIA
delayed implementation ofthe reduced percentage until FY 2014.


                                                  5
                                             UNCLASSIFIED
                                       UNCLASSIFIED 



payment work-CGFS/DCFO/MC assigned a rating of 1 (low risk) to programs with 0 to 3
improper payments or improper payments totaling less than $5,000; a rating of 2 (moderate risk)
to programs with 4 to 8 improper payments or improper payments totaling between $5,000 to
$1 00,000; and a rating of 3 (high risk) to programs with over 8 improper payments or improper
payments totaling over $100,000. After completing similar analyses of each of the eight OMB
risk factors for all programs, CGFS/DCFO/MC averaged the risk factor ratings for each program
to determine the program's overall risk level. The overall ratings for each program indicated that
26 of the 35 programs had low risk for incurring significant improper payments, and the
remaining nine programs had moderate risk.

        CGFS/DCFO/MC performed an additional assessment of the nine programs with
moderate risk. This second assessment considered factors such as the location in which the
program's costs were incurred and whether significant deficiencies in the program's internal
control had been previously identified. The results of this assessment indicated that the nine
programs' overall risk remained unchanged as moderate, and therefore, additional evaluations
were not deemed necessary. As a result, CGFS/DCFO/MC concluded that none of the
Department's programs were susceptible to significant improper payments as defined by OMB
Circular A-123, Appendix C.

      The report on the Department's FY 2012 compliance with IPIA included the following
recommendation relating to the Department's improper payments risk assessment:

Recommendation 1 (AUD-FM-13-23). OIG recommends that the Bureau ofComptroller and
Global Financial Services:

       • 	 Conduct full baseline risk assessments for all programs.
       • 	 Ensure all costs assigned to programs reflect the actual payments ofthe program.
       • 	 Refine the risk assessment process to provide additional guidance for rating each risk
           factor.
       • 	 Implement a method to obtain input from the bureaus and offices responsible for the
           programs.

       Based on the actions that CGFS/DCFO/MC has taken since the 2013 report, OIG is
closing this recommendation upon the issuance of this report.

Finding B. Controls To Prevent, Detect, and Recapture Improper Payments
Were Strengthened But Recapture Audit Excluded Some Payments

        The Department had implemented a program of internal control to prevent, detect, and
recapture improper payments. The Department had policies and procedures for prepayment
reviews to prevent improper payments, post-payment reviews to detect improper payments, and
recapture audits to recover improper payments. During FY 2013, the Department strengthened
its improper payments recapture audit policies and procedures. Specifically, CGFS/OMA
implemented procedures to ensure coverage of improper payments types other than duplicate
payments as well as programs with higher risk for improper payments. In addition, CGFS/OMA
implemented procedures to review overseas payments. The Department's post-payment reviews


                                            6

                                       UNCLASSIFIED 

                                        UNCLASSIFIED 


and recapture audits have identified and recovered improper payments totaling over $77 million
since FY 2005.

       Although improvements were made, CGFS continued to exclude a significant amount of
payments from its improper payments recapture audits without performing and documenting
cost-benefit analyses to support the exclusions. The recapture audit exclusions have limited the
Department's ability to identify and recover all improper payments.

Prepayment Reviews

        OMB Circular A-123, Appendix C, states that when implementing a payment recapture,
audit program agencies shall have a program of internal control to prevent, detect, and recover
overpayments. Prevention activities are designed to prevent improper payments from occurring.

        The Department has controls in place to help prevent improper payments from occurring.
For payments to vendors, vendors must submit invoices to either the Department's financial
service centers or to the foreign post that procured the good or service. For an invoice to be paid,
an approved official must certify that the good or service was received and ensure that the
invoice is valid and accurate. Once the invoice is approved, two Department personnel, a
voucher examiner and a certifying officer, are required to process the payment. The voucher
examiner enters the transaction into the Department's accounting system and ensures that all
supporting documentation has been submitted. The certifying officer reviews the transaction and
verifies that the supporting documentation is complete and the accounting data is correct. The
Department's financial accounting systems have automated controls that also verify certain
payment-related information. For example, the domestic financial management system does not
process payments with duplicate invoice numbers from one vendor.

        The Department uses other systems and processes to disburse payments for other
activities (for example, grant payments or payments to pensioners). The Department has
prepayment controls in place for these payments as well. For example, grantee eligibility and
compliance with grant covenants on prior awards are reviewed prior to disbursement of grant
payments. Prior to disbursement, pension payments are reviewed against the Social Security
Administration's listing of deceased individuals to ensure payments are not made to these
individuals.

Post-Payment Reviews

         OMB Circular A-123, Appendix C, states that detection activities occur subsequent to
payment and are intended to detect improper payments that may have occurred. These actions
test the accuracy of payment processes and identify improper payments made during those
processes. For example, routine payment verification or quality control would review a universe
of payments, using different criteria than are used during prepayment reviews, to detect potential
improper payments.

       The Department performed post-payment reviews as part of the routine payment process.
Specifically, CGFS/F/C selected random samples of payments on a monthly basis and reviewed


                                             7

                                        UNCLASSIFIED 

                                           UNCLASSIFIED 



the sampled items for adequate support, proper approval, and the validity and accuracy of the
amounts disbursed. This process would identify payments made to incorrect individuals,
payments made in inco~ect amounts, as well as payments that should not have been made.
CGFS/F/C also used data-matching techniques to identify potential duplicate payments disbursed
in the current fiscal year.

        On a monthly basis, CGFS/F/C prepared a monthly Quality Management report that
summarized the improper payments identified. This report tracked improper payments identified
against key metrics, including improper payments as a percentage of total payments issued.
Based on its analysis of the improper payments, CGFS/F/C identified the root causes and trends
of improper payments and reported the improper payments by office responsible, vendors paid,
and at the bureau level. Additionally, ifCGFS/F/C identifies a bureau to be problematic, the
Department performs targeted sampling of that bureau's payments.

Recapture Audits

        IPIA requires agencies to conduct recovery audits (also known as "recapture audits") for
each program that expends $1 million or more annually if conducting such audits would be cost
effective. According to OMB Circular A-123, Appendix C, a recapture audit is a review and
analysis of accounting and financial records, supporting documentation, and other information
supporting payments that is specifically designed to identify overpayments.

         The Department implemented an improper payments recapture audit process for domestic
payments in FY 2007.15 On a monthly basis, CGFS/OMA extracted a data file of payments
made during the previous month from the domestic financial management system and imported
the file into a data analysis tool. CGFS/OMA then performed a search for potential duplicate
payments by comparing the invoice number and dollar amount of each payment in the monthly
data file against the payments made during the previous 3 years. Payments with the same
invoice number and dollar amount were extracted into a separate file of potential duplicate
payments. CGFS/OMA provided the potential duplicate payments to CGFS/F/C for review.

        During FY 2013, CGFS/OMA strengthened its recapture audit activities. Specifically,
CGFS/OMA sampled domestic payments and obtained supporting documentation for the
selected payments to identify other types of improper payments, such as payments made for
incorrect amounts, payments made to ineligible recipients or for ineligible goods, or payments
made with inadequate supporting documentation. In addition, CGFS/OMA leveraged the results
of the FY 2012 improper payments risk assessments completed by CGFS/MC to ensure that
sufficient samples were taken from higher risk programs.

        Also new in FY 2013, CGFS/OMA implemented an improper payments recapture audit
process for overseas payments. CGFS/OMA obtained a data file of overseas payments from the
overseas financial management system and imported the file into a data analysis tool. From this
file, CGFS/OMA performed a manual review for potential duplicate payments by comparing
monthly payments against invoices processed in the overseas financial management system. In

15 CGFS/OMA began performing improper payments recapture audits in FY 2007; however, an external contractor
performed recapture audits for the Department in FYs 2005 and 2006.


                                                8
                                           UNCLASSIFIED
                                             UNCLASSIFIED 


addition to the duplicate payment review, CGFS/OMA selected a random sample of overseas
payments on vouchers that had individual amounts exceeding $10,000. CGFS/OMA obtained
supporting documentation from posts for each selected payment and reviewed the documentation
to identify payments made for incorrect amounts, payments made to vendors on the Department
of the Treasury's "Do Not Pay" listing, payments made for improper or unapproved purchases,
and payments made with inadequate supporting documentation.

        Post-Payment Review and Payment Recapture Audit Results

        As reported in the Department's FY 2013 AFR, the Department identified $11.2 million
in overpayments through its post-payment reviews during FY 2013. Of the $11.2 million, the
Department recovered $9.7 million. The Department also recovered $205,000 in improper
payments that were identified during post-payment reviews in previous years. In addition, the
Department identified $2,253 in improper payments through its FY 2013 payment recapture
audit process and recovered the entire amount. Together, the Department's post-payment
reviews and payment recapture audits have identified improper payments totaling approximately
$79 million from FYs 2005-2013. Of that amount, the Department recovered approximately $77
million as shown in Table 1.

Table 1. Improper Payments Identified and Recovered FYs 2005-2013 (in millions)
Review Process                         Amount Identified       Amount Recovered
Post-Payment Review                                $37.9                     $35.9
Payment Recapture Audit                             41.1                       41.1
Total                                              $79.0                     $77.0
Source: Department's FY 20 13 AFR.

Recapture Audit Exclusions

        OMB Circular A-123, Appendix C, states that agencies may exclude payments from
payment recapture audit activities if the agency determines that payment recapture audits are not
a cost-effective method for identifying and recapturing improper payments. If an agency
excludes a program that expends more than $1 million, the agency must notify OMB and OIG
and include any analysis used by the agency to reach this decision.

        The Department's FY 2013 improper payments recapture audit process did not include a
significant amount of payments. Specifically, grant payments amounting to approximately $2.5
billion that were made through the Payment Management System, 16 which processes the
majority of the Department's financial assistance-related payments, and pension annuity
payments amounting to approximately $894 million,I7 which were processed by CGFS's
Retirement Accounts Division, were excluded. CGFS/OMA also excluded supplemental
payments, shipping payments, passport fee reimbursements, training payments, and certain
transportation payments. These additional payment exclusions exceeded $188 million in FY
2013.

16 The Payment Management System is a grant payment system maintained by the U.S. Department of Health and 

Human Services. 

17 Amount disbursed to beneficiaries as disclosed in the Department's FY 2013 AFR, Note 10. 



                                                       9
                                             UNCLASSIFIED
                                       UNCLASSIFIED 




       CGFS/OMA stated that recapture audits were not performed over grant payments
processed through the Payment Management System because of issues obtaining payment
information from the U.S. Department of Health and Human Services. In addition, CGFS/OMA
excluded pension annuity payments because the Retirement Accounts Division has effective
controls in place and performs an analysis to identify and recover improper payments.

       As a result of the exclusions, the Department's FY 2013 recapture audit activities did not
cover approximately $3.6 billion in payments subject to IPIA requirements. Although it
excluded a significant amount of payments, the Department did not perform and document a
cost-benefit analysis supporting the basis for these exclusions, as was required.

        By excluding significant payment types from recapture audits, the Department may have
made but may not have identified and recovered all improper payments. Although traditionally
used as a technique to identify improper payments already made, recapture auditing results can
also be used to identify trends in improper payments and improve controls to prevent improper
payments.

      The report on the Department's FY 2012 compliance with IPIA included the following
recommendation relating to the Department's recapture audit activities:

Recommendation 2 (AUD-FM-13-23). 0/G recommends that the Bureau ofComptroller and
Global Financial Services update existing policies and standard procedures for its recapture
audit activities to ensure compliance with all OMB requirements. These revised policies and
procedures should include, but not be limited to, the following:

       • 	 Program, as well as payment, audit activities to help target recapture audits on
           programs or payment types that are deemed higher risk
       • 	 Alternative procedures to audit payments occurring outside the Global Financial
           Management System.
       • 	 Analytics and other proven recapture audit techniques (for example, predictive
           modeling, additional forensic accounting tools, additional data matches, and
           financial incentives) that address improper payments types other than duplicate
           payments.
       • 	 Requirements for performing a cost-benefit analysis for programs and payment types
           excluded from recapture audit activities and communicating the exclusions to the
            Office ofManagement and Budget and 0/G.

         Based on the actions CGFS/OMA has taken to strengthen its recapture audit activities by
implementing activities to address improper payments types other than duplicate payments,
ensure coverage of programs with higher risks, and review overseas payments, OIG is closing
this recommendation upon issuance of this report. However, CGFS/OMA should continue its
efforts to identify ways to expand its recapture audit coverage over currently excluded payments.

       Recommendation 1. 010 recommends that the Bureau of the Comptroller and Global
       Financial Services:


                                            10
                                       UNCLASSIFIED
                                       UNCLASSIFIED 




       • 	 Expand its recapture audit procedures to include pension annuity and Payment
           Management System grant payments or formally document the justification for
           excluding these payment types.
       • 	 Communicate the recapture audit exclusions to the Office of Management and Budget
           and 010, along with the justification or cost-benefit analysis.

       Management Response: COFS concurred with the recommendation, stating that it "will
       carefully evaluate" the recommendation and "implement corrective actions as
       appropriate."

       OIG Reply: 010 considers the recommendation resolved. This recommendation can be
       closed when 010 reviews and accepts documentation showing that COFS has expanded
       its recapture audit procedures to include all payment types or communicated the
       exclusions, along with the justification, to OMB and 010.

C. Required Improper Payments Disclosures Were Made but Some Were Not
Complete
         The Department included the required improper payments disclosures in its FY 2013
AFR. Specifically, COFS disclosed its improper payments risk assessment process and recapture
audit activities and results. COFS had also taken action to address reporting deficiencies
identified in the report on the Department's 2012 compliance with IPIA. Although COFS had
improved its improper payments reporting, two disclosures relating to the Department's
improper payments recapture audit process were not complete. By not including complete
information in its AFR, the Department is not providing users with complete information about
its efforts related to improper payments.

Improper Payments Disclosures Were Made

       IPIA states that for an agency to be in compliance with the act, the agency must publish
an annual financial statement for the most recent fiscal year and post that report, with the
information on improper payments required by OMB, on the agency's Web site. OMB Circular
A-123, Appendix C, requires an agency to disclose specific information relating to improper
payments in its annual AFR in the format provided in OMB Circular A-136, Revised, Financial
Reporting Requirements.

       The Department published its FY 2013 AFR on its Web site. The AFR included the
required improper payments disclosures. For example, the AFR included summary information
on improper payments, a description of the Department's improper payments risk assessment
process, and a description of the Department's payment recapture audit program.

        COFS had also enhanced its policies and procedures to address reporting deficiencies
identified in the report on the Department's 2012 compliance with IPIA. As a result, the FY
2013 AFR included additional required information. For example, the Management's
Discussion and Analysis section of the AFR included a brief description of the Department's


                                            11 

                                       UNCLASSIFIED 

                                          UNCLASSIFIED 


progress on eliminating and recovering improper payments; the payment recapture tables
followed the format provided in OMB Circular A-136; and the Department disclosed that grant
payments made through the Payment Management System were not included in its improper
payments recapture audits.

      The report on the Department's FY 2012 compliance with IPIA included the following
recommendation relating to the Department's improper payments reporting:

Recommendation 3 (AUD-FM-13-23). OIG recommends that the Bureau ofComptroller and
Global Financial Services enhance existing policies and standard procedures that ensure that
the improper payments information included in the Department ofState Agency Financial Report
is complete and accurate.

       Based on the actions the Department had taken to enhance its policies and procedures,
OIG is closing this recommendation upon issuance of this report.

Some Required Disclosures Were Not Complete

        Although the Department included the required disclosures in its AFR, two required
disclosures were not complete. OMB Circular A-136 requires that an agency provide a
description and justification of the classes of payments excluded from payment recapture audits.
CGFS properly disclosed in the Department's AFR that grant payments processed through the
Payment Management System were excluded from its payment recapture audits because of data
related issues. However, CGFS did not disclose that it had also excluded pension annuity
payments from the scope of its recapture audits. This issue was first reported in the report on
the Department's 2011 compliance with IPIA.•s

         Further, the recapture tables did not include complete information on the payments
identified and recovered through sources other than payment recapture audits. CGFS included
the amounts identified and recovered by CGFS/OMA during improper payments recapture audit
activities and by CGFS/F/C during post-payment reviews, as well as OIG recoveries. However,
CGFS did not track and assess information on payments identified as improper and recovered in
other Department offices and bureaus, such as contract close-out recoveries, recoveries resulting
from grant compliance reviews, and pension annuity overpayment recoveries. This issue was
first reported in the report on the Department's 2012 compliance with IPIA.

        By not including complete information in its AFR, the Department did not provide users
with all relevant and reliable information about its efforts to prevent and identify and recover
improper payments. AFRs play a key role in fulfilling the Government's duty to be accountable
for the use of public funds, and AFRs can be used to assess an agency's efficiency and
effectiveness in performing activities such as identifying and recapturing improper payments.

        Recommendation 2. OIG recommends that the Bureau of Comptroller and Global
        Financial Services improve its controls for improper payments reporting to ensure that all

18 Audit ofDepartment ofState Compliance With the Improper Payments Information Act (AUD/FM-12-31, March
2012).

                                               12
                                          UNCLASSIFIED
                              UNCLASSIFIED 



payment types excluded from recapture audits are disclosed and all improper payments
identified and recovered are reported in the Agency Financial Report.

Management Response: CGFS concurred with the recommendation, stating that it "will
carefully evaluate" the recommendation and "implement corrective actions as
appropriate."

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that CGFS has improved
its controls for improper payments reporting.




                                   13 

                              UNCLASSIFIED 

                                      UNCLASSIFIED 



                                List of Recommendations 


Recommendation 1. OIG recommends that the Bureau of the Comptroller and Global Financial
Services:

       • 	 Expand its recapture audit procedures to include pension annuity and Payment
           Management System grant payments or formally document the justification for
           excluding these payment types.
       • 	 Communicate the recapture audit exclusions to the Office of Management and Budget
           and OIG, along with the justification or cost-benefit analysis.

Recommendation 2. OIG recommends that the Bureau of Comptroller and Global Financial
Services improve its controls for improper payments reporting to ensure that all payment types
excluded from recapture audits are disclosed and all improper payments identified and recovered
are reported in the Agency Financial Report.




                                              14 

                                      UNCLASSIFIED 

                                                UNCLASSIFIED 



                                                                                                     Appendix A

                                       Scope and Methodology
        The Improper Payments Elimination and Recovery Act of 2010 1 (IPERA), which
amended the Improper Payments Information Act of20022 (IPIA), requires the Office of
Inspector General (OIG) to conduct an annual audit of the Department of State's (Department)
compliance with improper payments requirements. In accordance with the IPERA requirement,
an external audit firm, Kearney & Company, P.C. (Kearney), acting on OIG's behalf, performed
this audit to determine whether the Department was in compliance with IPIA, as amended by
IPERA.3

        Kearney conducted the audit work from December 2013 through February 2014 in
Washington, DC, and at the Office of Global Financial Services in Charleston, SC. Kearney
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that the auditor plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. Kearney and OIG believe that the evidence obtained provides a
reasonable basis for Kearney's findings and conclusions based on its audit objectives.

        Kearney focused the scope of the audit on the following objectives:. (1) to evaluate the
accuracy and completeness of the Department's improper payments risk assessment process; (2)
to evaluate the Department's performance in preventing, reducing, and recapturing improper
payments; and (3) to determine whether the Department reported the required improper
payments information in its FY 2013 Agency Financial Report (AFR).

       Kearney designed the audit to obtain insight into the Department's current processes,
procedures, and organizational structure with regard to compliance with IPIA requirements. To
expedite the audit process, Kearney leveraged the results of its FY 2013 financial statement audit
and audits of the Department's FY 2012 and 2011 compliance with IPIA to confirm its
understanding of the nature and profile of Department operations, IPIA standards, regulatory
requirements, and supporting information systems and controls.

        Kearney conducted process walkthroughs and interviews with Department officials to
obtain a sufficient understanding of the steps taken by the Department to assess the risk of
improper payments; its process of identifying significant improper payments; the steps taken to
prevent, reduce, and recapture improper payments; and the process of reporting improper
payments information. Consistent with the fieldwork standards for performance audits, Kearney
established performance criteria and identified sources of audit evidence to complete the testing
phase.

      During the testing phase, Kearney obtained and reviewed documentation supporting the
Department's FY 2013 pre- and post-payment internal control reviews, risk assessments,

I   Pub. L. No. 111-204 §3(b). 

2 Pub. L. No. I 07-300. 

3 Unless otherwise indicated, the term "IPIA"   will imply "IPIA, as amended by IPERA" in this report. 


                                                     15 

                                                UNCLASSIFIED 

                                       UNCLASSIFIED 


recapture audits, and improper payment disclosures. The testing phase provided Kearney with
evidence to determine the findings of the report issued for the performance audit. The criteria
determined in the planning phase served as the bases for assessing the Department's compliance
with IPIA requirements. The testing phase included procedures to assess the Department's IPIA
reporting process, the recapture audit process, and the AFR disclosures.

        During the reporting phase, Kearney formally communicated the conclusions reached and
the findings and recommendations for the actions the Department should take to comply with
IPIA requirements.

Work Related to Internal Controls

        Kearney performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, Kearney assessed the controls contained in the Department's policies and
procedures for making payments, performing risk assessments, reviewing payments, and
reporting improper payments information. However, Kearney did not perform testing of these
controls because it was beyond the scope of this audit.

Use of Computer-Processed Data

        Kearney obtained computer processed data (i.e., spreadsheets) and reporting packages to
aid in determining whether the Department complied with IPIA. More specifically, these data
provided evidence that the Department had taken steps to comply with IPIA. Kearney did not
perform tests to validate the spreadsheet amounts because such testing was not necessary to
accomplish audit objectives. However, Kearney assessed the data provided as reasonable based
on our understanding of the financial information gained during the audit of the Department's
FY 2013 financial statements.




                                               16
                                       UNCLASSIFIED
                                                       UNCLASSIFIED


                                                                                                                      AppendixB

       Depart men tP rograms S u b.~Jec tt0 I mproper p aymen s                                        IS      ssessmen t
                                                                           '
                                                                                                                    FY20l2
        Fund·
                                                              Program                                           Net Paynu~11ts*
        Group
                                                                                                                 .(in millions)
   1    Multiple**            Voluntary Contributions                                                                       $1,887.7
~                             Assessed Contributions                                                                        $3,740.5
~
f--­
                              Post-Assignment Travel                                                                          $138.2
   4                          Temporary-Duty Travel                                                                           $368.5
   5 0210                     National Endowment for Democracy                                                                $123.4
   6     1037                 Economic Support Fund                                                                           $315.0
   7     0113                 Diplomatic and Consular Programs (D&CP) - Miscellaneous Foreign                                 $119.1
f--­
                              Service   Institute and Human    Resources  Operational Expenses
1-­
   8                          D&CP- Western Hemisphere Travel Surcharge                                                       $131.1
1-­
   9                          D&CP    -  Overseas   Contingency    Operations                                                 $201.9
   10                         D&CP - Iraq Embassy Building Support                                                            $267.0
r-u­
f--­
                              D&CP-      Public   Outreach  Programs                                                          $155.1
1-­
   12                         D&CP    -  Expedited   Fee                                                                      $170.8
   13                         D&CP- Machine Readable Visa Processing Fee                                                      $386.6
14                            D&CP -Overseas Programs                                                                         $381.5
~
f--­
                              D&CP    -Diplomacy      Policy  and  Support                                                    $504.4
1-­
   16                         D&CP-      U.S.  Mission  Irag_ Associated Costs                                                $573.9
   17                         D&CP - Worldwide Security Protection                                                            $912.8
   18 0535                    Embassy Security, Construction & Maintenance (ESCM)- Overseas                                   $142.1
                              Building Renovations and Maintenance
~                             ESCM - Overseas Physical Security Upgrades                                                        $90.4
  20
f--­
         4519                 Working    Capital   Fund (WCF)    -  WCF                                                       $330.9
  21
f--­
                              WCF - International Cooperative Administrative Support Services                                 $954.0
  22                          WCF- Aviation WCF Cost Centers                                                                  $144.5
  23 1143 & 0040              Migration and Refugee Assistance - Refugee Admissions                                           $170.9
  24 0209                     Educational and Cultural Exchange Programs (ECA)- Citizen                                         $99.9
                              Exchange Program
-
  25                          ECA- Fulbright Program                                                                          $249.2
  26 1022 & 1154              International Narcotics Control and Law Enforcement (INL)­                                      $235.2
                              Interregional Aviation Su_l)p_ort
-
- 27
  28
                              INL - Aviation Support
                              INL - Promote the Rule of Law
                                                                                                                              $161.8
                                                                                                                              $214.2
29
'----­
                              INL - Other Anticrime Programs                                                                  $229.3
  30                          INL - Counternarcotics and Interdiction                                                         $192.4
  31 1032                     Peacekeeping Operations - Supply, Transportation and Procurement                                $225.9
  32 1075                     Non-Proliferation, Anti-Terrorism, Demining, and Related Programs                               $131.2
                              (NADR) - Demining and Operational Expenses
- 33                          NADR- Non-Proliferation                                                                         $214.8
  34 0535                     ESCM - Overseas Short Term Lease Residential Program                                            $329.4
-
  35                          ESCM - Overseas Construction
                                                                                             ..
  Source: Prepared by Kearney based on mformat1on contamed m the Department's "Defimt1ons of Programs and Act1v1t1es
                                                                                                                          . $1,181.7
                                                                                                                            ..
  Memo."
  *These amounts represent the expenditures subject to IPIA requirements and, therefore, do not include payments to employees
  and other Federal agencies.
  ••Although these activities support several significant programs across multiple funds, CGFS/DCFOIMC determined that each
  of the activities has the same control environment and concluded that it was appropriate to assess the activities as separate
  programs.



                                                            17 

                                                       UNCLASSIFIED 

                                                                               Appendix C


                                                   United Statl:s Dcpartrncnt of State
                                                   c·( nup!roller
                                                   P.O. Box 150008
                                                  (. "harl\."slon. SC 29415-500X

                                                   APR 0 3 2014
UNCLASSIFIED

MEMOil.ANDlJM

TO:        OIG -Steve A. Linick

FROM:      CGFS- James L.    Millette~
SUBJECT: 	 Draft Report on Audit ofDepartn1ent of State FY 2013 Cornpliance
           \Vith the ln1proper Payn1ents Requirements

Thank you for the opportunity to con1n1ent on the Office of Inspector Generars
(OIG) Draft Report titled Audit of Departrnent of State FY 2013 Compliance with
the Improper Payments Require1nents.

Significant amendn1ents have been n1adc in the past few years regarding the
Improper Payments lnforrnation Act of 2002, with the passage of IPERA
(ln1proper Payn1ents Elirnination and Recovery Act) in 20 I 0 and most recently
IPERlA (Improper Payrncnts Elimination and Recovery Improvement Act) in
2012. The Departtnent has n1ade significant etTorts to con1ply with all guidance in
a manner that also leverages the good stewardship of government funds and
ensures our initiatives are cost-effective. We take pride that our program is
compliant with TPIA, but we recognize thatrnore ianprovements can be made and
will continue doing so. As such, we concur with the OIG recon1mendations
regarding the Department's recapture and reporting activities for improper
payn1cnts. The Department takes the OIG recon1mendations very seriously, as
demonstrated by the acco1nplishments noted in the report. We will carefully
evaluate the ne\v recornrnendations 1nade and implement thcn1 to the extent they
are a beneficial and cost-effective use of govemn1ent funds. After \Ve have fully
evaluated the recomn1cndations, we will implement corrective actions as
appropriate.

As acknowledged in the Dratl Report, the Department e1nploys nun1erous
preventative and identification methods to support IPIA requirernents. We have


                                  UNCLASSIFIED 

                                       18 

                                                                                    Appendix C
                                    UNCLASSIFIED
                                        ·2­

dedicated considerable resources to   prev~nl            improper payments from occurring,
and take pride in our track record of success based on the low volutnc of actual
improper payments identified and recovered each year. Prior TPTA regulatory
guidance was geared toward high-risk programs and activities that "vere deemed
susceptible to significant improper payments. Despite having no programs or
activities susceptible to signif1cant improper payments, as previously defined, the
Department uses risk a~sessment and recapture initiatives to assist in identifying
improper payrnents and related payn1ent issues. With the implementation of our
Global Financial Management System in 2007, \ve fully integrated acquisitions
into the t'inancial system at the line level, significantly enhancing the integrity of
our payments. In addition, we have strengthened our payment internal controls
through our efforts under OMH's L>o Not Pay initiative.

We recogni7;e that Lhe IPERA.. IPERIA and related guidance has raised the bar on
transparently accowning for and preventing improper payments for all Agencies                1

including the Department. We are committed to n1ccting these cotnpliancc
requirements in a reasoned n1anncr. We look forward to \\o'orking with both the
OIG and the Independent Auditor on turther enhancements to our existing
progra1ns in the coming year.                                      ·

Jfyou have any questions concerning this status sumn1ary, please contact Carole
                                         [Redacted] (b) (6)

Clay (CGFS/DC.FO/MC) at (202) 663­




                                                  19 

       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

